                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL




                  REPORT ON MATTERS IDENTIFIED AT THE
                              HANFORD SITE
             DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
           CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS




Report Number: WR-FS-00-01                        Western Regional Audit Office
Date of Issue: March 15, 2000                     Albuquerque, New Mexico 87185
                   REPORT ON MATTERS IDENTIFIED AT THE
                               HANFORD SITE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS




                                   TABLE OF CONTENTS

                                                                                     Page

            SUMMARY… … … … … … … … … … … … … … … … … … … … … … ..… .                  1

PART I -    APPROACH AND OVERVIEW… … … … … … … … … … … … ..… … … .                    2

            Introduction… … … … … … … … … … … … … … … … … … … … … ..… … ..            2

            Scope and Methodology… … … … … … … … … … … … … … … ..… … … ...            2

            Observations… … … … … … … … … … … … … … … … … … ..… … … … … .             3

PART II -   AUDIT RESULTS… … … … … … … … … … … … … … … ..… … … … … ...                4

            Environmental Liabilities Understated for Closure of Single Shell Tank
            Farms.… … … .… … … … … … … … … … … … … … … … … … … … … … … .              4
                                U.S. DEPARTMENT OF ENERGY
                               OFFICE OF INSPECTOR GENERAL
                                 OFFICE OF AUDIT SERVICES
                              WESTERN REGIONAL AUDIT OFFICE


                     REPORT ON MATTERS IDENTIFIED AT THE
                                 HANFORD SITE
                DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
              CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS


Audit Report Number: WR-FS-00-01

                                             SUMMARY

        The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A departmentwide audit was conducted to determine whether there was
reasonable assurance that DOE's consolidated Fiscal Year (FY) 1999 financial statements were
free of material misstatements. We conducted a portion of the departmentwide audit at the
Richland Operations Office (Richland); Office of River Protection (ORP); CH2M Hill Hanford
Group, Incorporated (CH2M Hill); Bechtel Hanford, Incorporated (Bechtel); and Fluor Hanford,
Incorporated (Fluor) and its subcontractors.

        The audit disclosed an error, as of September 30, 1999, in the Environmental Liabilities
account. Richland's Environmental Liabilities account was understated because the cost estimates
for closure of single shell tank farms had not been updated to reflect current engineering estimates.

        We recommended that Richland adjust the Environmental Liabilities account and that
management review other project cost estimates to determine if estimates were based on the best
available data. Management concurred with the recommendations and implemented corrective
actions.



                                                            ________________________
                                                              Office of Inspector General
                                                 PART I

                                    APPROACH AND OVERVIEW

INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to OMB.
A departmentwide audit of the consolidated FY 1999 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the departmentwide audit was to determine whether DOE's consolidated
financial statements presented fairly, in all material respects, the financial position of DOE as of
September 30, 1999 and 1998, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in conformity
with generally accepted accounting principles. Departmentwide issues are addressed in Audit
Report No. DOE/IG-FS-00-01, issued February 17, 2000.

        The purpose of this report is to inform Richland and ORP management of matters that came
to the attention of the Office of Inspector General (OIG) during the audit at the Hanford Site. ORP
is responsible for the Hanford Site's tank waste remediation system. Richland is responsible for the
account balances entered into DOE's core accounting system.

SCOPE AND METHODOLOGY

        The audit was conducted from July 1999 through January 2000 at the offices of Richland,
ORP, CH2M Hill, Bechtel, and Fluor at the Hanford Site, Washington. Specifically, we examined
internal controls, assessed compliance with applicable laws and regulations, and selectively tested
account balances reported to DOE Headquarters to satisfy departmentwide audit objectives.

         The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 31, 2000. Projection of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.



                                                   2
        In addition to the audit work conducted by the OIG, an independent public accounting
firm reviewed certain audit cycles. The independent public accounting firm reviewed the
Overview, including expanded EDP procedures, Disbursement, and Financing cycles at Richland.
The OIG reviewed the Environmental Liabilities cycle at Richland, ORP, CH2M Hill, Bechtel, and
Fluor.

       The OIG considered all findings generated as a result of the reviews when preparing the
departmentwide report and the management report referred to in that report. The OIG is
addressing issues requiring local management's attention in this report.

       An exit conference was held with the Director of Richland's Financial Division on
February 29, 2000.

OBSERVATIONS

         Richland's Environmental Liabilities account was understated by $172 million because
ORP and CH2M Hill had not updated the cost estimate for closure of single shell tank farms to
reflect current engineering estimates. We recommended that Richland adjust the Environmental
Liabilities account and that Richland and ORP review other project cost estimates to determine if
they use the best available data. Management concurred with the finding and recommendations
and implemented corrective actions.

      Part II of this report provides additional details concerning the audit results and
management's comments.




                                                 3
                                                PART II

                                           AUDIT RESULTS

Environmental Liabilities Understated for Closure of Single Shell Tank Farms

         Statement of Federal Financial Accounting Standards No. 6, Accounting for Property,
Plant, and Equipment, states that cleanup cost estimates must be revised periodically to account
for material changes due to inflation or deflation and changes in regulations, plans and/or
technology. It also states that new cost estimates should be provided if there is evidence that
material changes have occurred. However, the costs for closure of single shell tank farms had not
been updated to reflect current engineering estimates. This occurred because ORP and CH2M
Hill focused funding and management efforts on planning and cost estimating for near-term
activities. The cost estimates for out-year activities, such as closing the single shell tank farms,
therefore received little management review since preparation of the initial cost estimate. As a
result, Richland's Environmental Liabilities account was understated by $172 million.

Recommendations

       We recommend that Richland and ORP:

       1. Adjust the Environmental Liabilities account upward by $172 million; and,

       2. Review other project cost estimates to determine if they use the best available data.

Management's Response

         Management concurred with the finding and recommendations and adjusted the
Environmental Liabilities account by $172 million. ORP stated that it had previously made a
management decision not to update the estimate for single shell tank farm closure. Management
reasoned that there were uncertainties surrounding the cost estimates because they were out-year
estimates. Additionally, management considered the recommended adjustment to be immaterial
to the financial statements and to the total estimated program cost of $7.2 billion for waste
retrieval and closure of single shell tank farms (retrieval program). Although management
concurred with Recommendation 2, ORP stated that it believed that the recommendation was
already fully implemented because projects are continually reviewed and cost estimates are refined
as additional information becomes available.

Auditor Comments

        Management action is responsive to Recommendation 1. We agree with management that
$172 million is not material to either the financial statements or the $7.2 billion cost of the
retrieval program. However, the $172 million is material to the specific project in question. For
closure of single shell tank farms, the $172 million represents a 59.9 percent increase over the
existing baseline estimate of $287 million. It is at this level that the cost estimates are developed.


                                                  4
The $7.2 billion cost for the retrieval program is simply a roll up of the cost estimates for many
individual projects.

       Management's concurrence to review other project cost estimates is responsive to
Recommendation 2. The OIG agrees that ORP has been performing reviews of project cost
estimates. However, information obtained during the audit indicated that management's efforts
were focused on near-term activities. According to CH2M Hill's Single Shell Tank Program
Manager, there has been little funding available to perform any type of detailed cost estimating
needed to update out-year project cost estimates.




                                                  5
                                                                   IG Report No.: WR-FS-00-01

                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?
2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              Department of Energy
                              Washington, D.C. 20585

                              ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:


            U.S. Department of Energy Management and Administration Home Page
                                   http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
